4a
I

C@QCKLE

2311 Douglas Street L ega ] Brie fs E-Mail Address:

Omaha, Nebraska 68102-1214

Est. 1923 contact@cocklelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com

Fax: (402) 342-4850 No.

PHILLIP W. HURD and PATRICK A. JENKINS,
Petitioners,
Vv.
JOY LASKAR, PH.D.,
Respondent.

AFFIDAVIT OF SERVICE

1, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 22nd day of March, 2021, send out
from Omaha, NE 1 package(s) containing 3 copies of the PETITION FOR A WRIT OF CERTIORARI in the above entitled
case. All parties required to be served have been served by third-party commercial carrier for delivery within 3 calendar
days. Packages were plainly addressed to the following:

SEE ATTACHED

To be filed for: ‘
CHRISTOPHER M. CARR
Attorney General of Georgia
ANDREW A. PINSON
Solicitor General
Counsel of Record
KATHLEEN M. PACIOUS
Deputy Attorney General
ROSS W. BERGETHON
Deputy Solicitor General
ROGER A. CHALMERS
Senior Assistant Attorney General
ZACHARIAH W. LINDSEY
ROBERT B. SHAPIRO
Assistant Attorneys General
OFFICE OF THE GEORGIA
ATTORNEY GENERAL
40 Capitol Square, SW
Atlanta, Georgia 30334
(404) 458-3409
apinson@law.ga.gov
Counsel for Petitioners

Subscribed and sworn to before me this 22nd day of March, 2021.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

, GENERAL HOTARY-State of Nebraska 9) / je 2 L y
RENEE J. GOSS *

My Comm. Exp. September 5, 2023

 

 

Notary Public Affiant 40812
Michael Alan Dailey

ANDERSON DAILEY LLP

2002 Summit Boulevard, Suite 1250
Atlanta, Georgia 30319

404-442-1818
mdailey@andersondailey.com

Counsel for Respondent Joy Laskar, Ph.D.
